Office of Inspector General
U.S. Department of Labor
Office of Audit




                       AUDIT OF FLORIDA
                          DISASTER
                  UNEMPLOYMENT ASSISTANCE
                     GRANT NUMBER 1359-DR
                  FEBRUARY 5, 2001 - JULY 30, 2003




                                    Report Number: 04-04-004-03-315
                                    Date Issued: March 26, 2004
Audit of Florida Disaster Unemployment Assistance Grant Number 1359-DR



                                         TABLE OF CONTENTS

                                                                                                                            Page

ACRONYMS........................................................................................................................ iii

EXECUTIVE SUMMARY ....................................................................................................1

INTRODUCTION ..................................................................................................................3

OBJECTIVE, SCOPE AND METHODOLOGY ...................................................................5

RESULTS OF AUDIT............................................................................................................7

     Claims Filed Late, Without Good Cause ..........................................................................7

     Claims Not Disaster Related...........................................................................................10

     Claims Paid Without Sufficient Documentation
     or Because of Other Administrative Errors ....................................................................12

CONCLUSION.....................................................................................................................12

RECOMMENDATIONS......................................................................................................13

FLORIDA AGENCY FOR WORKFORCE INNOVATION’S RESPONSE.......................13

EXHIBITS

A. DUA IMPROPERLY PAID FOR SAMPLED PARTICIPANTS

B. SAMPLING METHODOLOGY AND PROJECTIONS

C. COMPLETE TEXT OF FLORIDA AGENCY FOR WORKFORCE INNOVATION’S
   RESPONSE




U.S. Department of Labor – Office of Inspector General                                                                         ii
Audit of Florida Disaster Unemployment Assistance Grant Number 1359-DR



                                          ACRONYMS

CFR                      Code of Federal Regulations

DUA                      Disaster Unemployment Assistance

ETA                      Employment and Training Administration

FAWI                     Florida Agency for Workforce Innovation

FEMA                     The Federal Emergency Management Agency

NOAA                     National Oceanic and Atmospheric Administration

OIG                      Office of Inspector General

USDOL                    The U.S. Department of Labor




U.S. Department of Labor – Office of Inspector General                     iii
                               EXECUTIVE SUMMARY

On February 5, 2001, President Bush declared a major disaster in 49 Florida counties, due to
damaging effects from freezing weather on agricultural crops, commercial fishing and fish
farming. The declaration allowed the Federal Emergency Management Agency (FEMA),
Department of Homeland Security to provide Florida with Disaster Unemployment
Assistance (DUA). On February 9, 2001, Florida announced that DUA grant number 1359-
DR was available to individuals affected by freezing weather that occurred in Florida
between December 1, 2000 and January 25, 2001.

At FEMA’s request, we completed an audit of $3.04 million in claims charged to DUA grant
number 1359-DR, from the grant’s inception through July 30, 2003. Based on a statistical
projection of audit sample results, we believe the Florida Agency for Workforce Innovation
(FAWI) paid at least $1.67 million to claimants that was not properly chargeable to the
Florida DUA grant.

To determine if filing and eligibility requirements had been properly applied, we randomly
selected a sample of 420 claimants who received payments totaling $667,619. Our sample
was chosen from among 1,842 claimants who were paid benefits. (See Exhibit B for a
discussion of the sampling methodology.) We performed a comprehensive review of the
sampled DUA claimants’ data files and all documentation relative to their claims. The
review was conducted to determine: (1) if claimants had applied for DUA benefits, in a
timely manner, and if not, whether they had good cause for late filing; and (2) if claimants
were eligible for each week of DUA they received.

We determined FAWI did not adhere to Federal guidelines for DUA filing and eligibility.
Instead, FAWI improperly applied eligibility and filing guidelines resulting in payments to
claimants who: (1) did not apply for benefits timely, (2) were not unemployed due to the
disaster, or (3) were not required to provide adequate documentation of their continuing
eligibility for benefits or were paid because of other administrative errors.

We found that 300 (71 percent) of the 420 sampled claims were improperly paid. Many of
the 300 claims were improperly paid for more than one reason. (See Exhibit A.)
Specifically:

    •   151 of the 420 claims (36 percent) were filed after the allowable 30-day filing period
        without a good cause for being late;

    •   200 claims (48 percent) were paid for weeks of unemployment that was not caused by
        the disaster; and

    •   153 claims (36 percent) were paid without having obtained sufficient documentation
        of claimants’ continuing eligibility to receive DUA or because of other administrative
        errors.

U.S. Department of Labor – Office of Inspector General
Audit of Florida Disaster Unemployment Assistance Grant Number 1359-DR



There is currently no mechanism, short of terminating the DUA agreement between DOL and
the state pursuant to 20 CFR 625.1(d)(3), for sanctioning Florida for policies and decisions
that resulted in improper DUA payments. Specifically, neither the statute establishing the
DUA program nor the implementing regulations contain a provision providing for the
Federal Government to demand that the State make repayment of improperly disbursed
benefits, absent collection by the State from the individual recipient. As it was FAWI’s
policies and stewardship, not the intentional or unintentional fault of claimants, that resulted
in improper charges to the grant, we are not questioning costs for recovery from the
claimants. However, we are recommending that the Assistant Secretary for Employment and
Training ensure that Florida establishes administrative policies and procedures that comply
with Federal filing and eligibility guidelines.

In response to the draft report, the FAWI disagreed with the report findings on claims filed
late without good cause and claims not disaster related. During audit fieldwork, we
considered the reasoning FAWI provided for its interpretations of Federal filing and
eligibility guidelines. Its response to the draft report, FAWI did not provide new arguments
in support of its position. However, with regard to the finding that claimants were paid for
weeks before the freeze occurred, FAWI’s response did present a different source, the
National Oceanic and Atmospheric Administration (NOAA), for freeze data relevant to our
finding. To determine when a county experienced a damaging freeze, we used data from the
Florida Agricultural Statistics Service.

According to the NOAA data they provided, some counties the Florida Agricultural Statistics
Service reported as not having encountered a freeze in December 2000 did have freezing
temperatures during the month of December. Subsequent to receiving FAWI’s response, we
reexamined the relevant sample case files using the NOAA data and found 53 of the 63
claimants would still be shown as claimants paid for weeks before freezing occurred.
Therefore, using either criterion, claims were inappropriately paid to claimants whose
unemployment was not due to freeze damage.

Despite disagreement with two of the three report findings, FAWI agreed to take action to
address recommendations related to these findings. In summary, FAWI’s response did not
change our conclusions or recommendations. A copy of FAWI’s complete response to the
draft report is included in this report as Exhibit C.




U.S. Department of Labor – Office of Inspector General                                    2
Audit of Florida Disaster Unemployment Assistance Grant Number 1359-DR



                                         INTRODUCTION

Background

DUA provides unemployment benefits to individuals who become unemployed as a result of
a major disaster, and are not eligible for benefits under a state’s regular unemployment
program. FEMA of the U.S. Department of Homeland Security funds DUA grants to states.
The U.S. Department of Labor (USDOL) administers DUA grants under a delegation of
authority from FEMA. Applicants must apply for DUA through State Employment Security
Agencies for benefit eligibility determination. The Florida Agency for Workforce Innovation
(FAWI) is the State of Florida’s Employment Security Agency.

Criteria

Sections 410 and 423 of the Robert T. Stafford Disaster Relief and Emergency Assistance
Act are implemented through the Code of Federal Regulations (CFR) Title 20, Part 625.
DUA benefits are payable for the first benefit week (as defined by state law) following the
disaster incident that caused an individual to become unemployed, and can extend for no
more than 26 weeks after the date of the disaster declaration. Applicants for DUA must
apply within 30 days following public announcement of DUA availability. An extension for
filing an application may be granted if, as a result of the disaster, an individual was
physically prevented from filing a timely application.

To be eligible for DUA, an applicant cannot be eligible for regular unemployment
compensation. All weekly payments of DUA paid to an individual must be for
unemployment directly caused by the disaster, not for periods that the claimant would
normally have been unemployed.

Assistance for Florida Unemployed Workers

On February 5, 2001, President Bush declared a major disaster in 49 Florida counties due to
damaging effects from freezing weather on agricultural crops, commercial fishing and fish
farming. The declaration allowed FEMA to provide Florida with DUA grant number 1359-
DR. The purpose of the DUA grant was to provide unemployment compensation to
employees and self-employed persons who had become unemployed as a direct result of the
declared disaster. On February 9, 2001, FAWI’s announced that DUA was available to
individuals affected by freezing weather beginning December 1, 2000, and ending
January 25, 2001. Florida residents who lived or worked in the 49 county disaster areas had
through Monday, March 12, 2001, to apply for DUA.1 Applicants who applied in a timely
1
    The deadline was extended until March 12th because the 30th day after the notice was a non-workday.



U.S. Department of Labor – Office of Inspector General                                                    3
Audit of Florida Disaster Unemployment Assistance Grant Number 1359-DR



manner, who were unemployed as a direct result of the freeze and were not eligible for
regular state unemployment compensation, could receive DUA benefits for up to 26 weeks
from the date of the disaster declaration.

ETA Findings

In July 2002, Atlanta Regional ETA staff performed a review of a sample of DUA claims
filed under disaster numbers 1345 and 1359. Among other things, ETA found that in about
25 percent of the combined claims they examined, claimants’ unemployment was not directly
attributable to the disaster.2 ETA also found that about 12 percent of the claims were filed
late, without good cause. However, ETA did not require Florida to repay misspent grant
funds.

OIG’s Involvement

Subsequent to ETA’s review, the U.S. Department of Homeland Security, Office of Inspector
General (OIG) contacted us with concerns that Florida had substantially overcharged DUA
grant number 1359-DR for claims paid to ineligible persons.

After further discussions with Atlanta U.S. Department of Homeland Security, OIG and
FEMA program officials, we agreed to audit benefits paid under DUA grant number 1359-
DR, for compliance with filing and eligibility requirements contained in applicable laws and
regulations.




2
  A majority of the claims ETA examined were from DUA grant number 1359. However, ETA’s monitoring
report does not distinguish whether the claims with exceptions involved DUA grant 1345 or 1359.



U.S. Department of Labor – Office of Inspector General                                         4
Audit of Florida Disaster Unemployment Assistance Grant Number 1359-DR



              OBJECTIVE, SCOPE AND METHODOLOGY

Objective

We reviewed claimant history files of individuals who received DUA benefits funded by
DUA grant number 1359-DR. Our objective was to determine if DUA grant number 1359-
DR administered by FAWI paid DUA benefit payments to claimants who met filing and
eligibility requirements in accordance with 20 CFR 625 and ETA Handbook Number 356,
2nd Edition. The purpose of DUA is to provide unemployment benefits to individuals who
become unemployed as a result of a major disaster and are not eligible for benefits under the
State’s regular unemployment program.

Scope

We audited payments made by FAWI applicable to 1,842 claimants in the State of Florida
who received about $3,039,600 in benefits funded by DUA grant number 1359-DR, during
the period February 2001 through July 2003.

Methodology

To obtain an understanding of the DUA program, we reviewed legislation, monitoring
reports, and other material prepared by FEMA and ETA. We also interviewed FEMA, ETA
and FAWI personnel and administrators to determine how DUA application and eligibility
determination practices and procedures should have been applied.

FAWI provided us with data files related to 1,842 DUA claimants who were paid under grant
number 1359-DR. The data files included employment, DUA, and regular unemployment
compensation histories for each DUA claimant.

To determine if filing and eligibility requirements had been properly applied, we randomly
selected a sample of 420 claimants from among the 1,842 DUA claimants paid from grant
number 1359-DR. Our sample was designed to provide estimates at a 90 percent confidence
level.

We performed a comprehensive review of the sampled claimants’ data files and related
documentation all of which we obtained from FAWI. We determined (1) if claimants had
applied for DUA benefits in a timely manner, and if not, whether they had good cause for
late filing; and (2) if claimants were eligible for each week of DUA they received.

We did not evaluate FAWI’s internal controls over DUA funded payments; our examination
was limited to obtaining a general understanding of internal controls over unemployment


U.S. Department of Labor – Office of Inspector General                                   5
Audit of Florida Disaster Unemployment Assistance Grant Number 1359-DR



compensation payments. Our audit was made for the sole purpose of determining if Federal
guidelines for DUA filing and eligibility requirements had been satisfied.

Our audit was conducted in accordance with Government Auditing Standards, and included
such tests as we considered necessary to satisfy the objective of our audit. Fieldwork began
in May 2003 and continued to December 2003 at FAWI’s central office in Tallahassee,
Florida.




U.S. Department of Labor – Office of Inspector General                                  6
Audit of Florida Disaster Unemployment Assistance Grant Number 1359-DR



                                   RESULTS OF AUDIT


FAWI paid at least $1.67 million to claimants that was not properly chargeable to DUA grant
number 1359-DR. FAWI did not adhere to Federal guidelines for DUA filing and eligibility.
Instead FAWI improperly applied eligibility and filing guidelines resulting in payments to
claimants who: (1) did not apply for benefits timely, (2) were not unemployed due to the
disaster, or (3) were not required to provide adequate documentation of their continuing
eligibility for benefits or were paid because of other administrative errors.

Our review of 420 sampled claimants indicated that 300, or about 71 percent, received
$413,325 in DUA payments that should not have been charged to grant number 1359-DR.

We found:

     •   151 of the 420 claims (36 percent) were filed after the allowable 30-day filing period
         without a good cause for being late;

     •   200 claims (48 percent) were paid for weeks of unemployment that was not caused by
         the disaster; and

     •   153 claims (36 percent) were improperly paid because of agency administrative
         errors, such as missing documentation.3

When the results of our review are projected to all 1,842 claimants who received DUA, at
least $1.67 million of benefit payments were improperly charged to the grant. (See Exhibit
B.)

    Claims Filed Late,                        FAWI provided DUA funded benefits to individuals
                                              who, without good cause, failed to apply for
    Without Good Cause
                                              assistance within the allowable 30-day filing period.

20 CFR 625.8 provides:

         . . . an initial application for DUA shall be filed by an individual . . . within
         30 days after the announcement date of the major disaster as the result of
         which the individual became unemployed. . . . An initial application filed
         later than 30 days after the announcement date of the major disaster shall be

3
 As previously mentioned, the sum of the improperly paid claims total more than the 420 claimants included in
our sample, because some claims were improperly paid for more than one reason.



U.S. Department of Labor – Office of Inspector General                                                 7
Audit of Florida Disaster Unemployment Assistance Grant Number 1359-DR



        accepted as timely . . . if the applicant had good cause for the late filing . . . .
        (c) . . . all applications for DUA, including initial applications, shall be filed in
        person.

Specifically, we identified 151 of 420 sampled claimants (36 percent) that filed after the
March 12, 2001 deadline, without good cause. The median filing date for the 151 claims was
60 days after the time limit had expired. Claimants, who filed late without what we consider
as good cause, generally fell within two categories:

Fishermen

Of the 151 sampled claimants who filed late, 27 were fishermen.4 (See Exhibit A). FAWI
officials indicated Florida’s justifications for accepting claims after the deadline included (1)
failure to return some applicants’ telephone calls until after the filing deadline, (2) claimants
were provided inaccurate eligibility information prior to the deadline, and (3) FAWI failed to
communicate the deadline for filing to fishermen.

However, FAWI did not have evidence that miscommunication justified acceptance of
applications that were filed after the deadline. Rather, correspondence dated
March 13, 2001, to a representative of the Organized Fishermen of Florida from an FAWI
official indicated:

        . . . If you provide me the names and phone numbers of any constituent
        shrimpers who may need to file DUA claims, I will make sure they are on
        record as having contacted us by the deadline.

If a fisherman’s name was included on a list that the Organized Fishermen of Florida
provided to FAWI, sometime on or after March 13, 2001, that fisherman’s application was
accepted as having demonstrated good cause for filing late.

We found no basis for affording disparate treatment to late filing fishermen. Florida’s public
announcement of DUA availability on February 9, 2001, clearly stated:

        . . . individuals who have lost jobs or businesses . . . due to the damaging
        effects from freezing weather on agricultural crops, commercial fishing, and
        fish farming [emphasis added] . . . may be entitled to . . . DUA benefits.




4
 We use the term “fishermen,” as it was applied by FAWI, to include individuals who were engaged in
commercial fishing, fish farming or any other fish-related occupation.



U.S. Department of Labor – Office of Inspector General                                                8
Audit of Florida Disaster Unemployment Assistance Grant Number 1359-DR



The notice included detailed instructions on how and where to apply, and a filing deadline of
March 11, 2001.5 Therefore, members of the fishing association were afforded the same
notice and filing instructions as all other potential claimants. Additionally, considering
individuals to have filed timely because they were on a list of members of a particular group
is inconsistent with 20 CFR 625.8, which requires not only that applications be filed timely,
but also that they must be filed “in person,” unless there is good cause for not doing so.

Short Season

FAWI accepted 114 of the 151 claims that were filed late because the claimants were
working during the 30-day filing period. (See Exhibit A.) FAWI’s policy was to accept late
claims from agricultural workers, although their unemployment did not begin until after the
DUA filing deadline had passed.

FAWI interpreted 20 CFR 625.1(b), to allow “good cause” for filing late to be liberally
defined, “according to state law and policy.” FAWI also indicated Florida has historically
accepted claimants working during the 30-day filing period as good cause for late filing.
FAWI reasoned that seasonal workers were laid off after the March 12, 2001 deadline had
passed, because their normal seasonal employment period had been shortened by a
substantial reduction in the amount of crops available for harvest. We found no basis for
FAWI’s reasoning.

According to data compiled by the Florida Agricultural Statistics Service, there was very
little reduction in crop yield during the winter season of 2000/2001 compared to the winters
before 1999/2000 or after 2001/2002, when there were no freezes. In fact, oranges, the
principal citrus crop, experienced only a 2 percent decline in yield in 2000/2001 from that of
1999/2000, and were the same as 2001/2002 yields.

Additionally, as will be subsequently discussed, in many cases where FAWI paid DUA to
late filers based on a “short season”, we found that the claimants’ work season was not any
shorter than normal seasons. Therefore, we concluded that their unemployment was not a
direct result of the disaster.

According to ETA, the 30-day filing period for DUA is an absolute requirement, unless there
is a reason the claimant could not physically file by the deadline, such as an injury or
environmental damage that would prevent a person from either calling or going to a filing
location. We found no provision in 20 CFR 625 or ETA Handbook No. 356, 2nd Edition,
Disaster Unemployment Assistance, that allows late filing because of delayed
unemployment.

5
 20 CFR 625.8a provides “If the 30th day falls on a Saturday, Sunday, or a legal holiday, the 30-day time limit
shall be extended to the next business day.” Therefore, the actual last filing date was Monday, March 12, 2001.



U.S. Department of Labor – Office of Inspector General                                                   9
Audit of Florida Disaster Unemployment Assistance Grant Number 1359-DR



We could not identify a cause for the 10 remaining claims in our sample that were filed late.
FAWI had not requested authority to extend the period for filing past the March 12, 2001
deadline, and we found no evidence to support its justifications for accepting late claims in
any of the cases we have discussed.


                                     We found that 200 of 420 sampled claimants (48 percent)
  Claims Not                         were paid DUA for weeks of unemployment that was not the
  Disaster Related                   result of freezing weather.

Improper payments involved claimants who were paid for weeks of unemployment that
preceded the freezing weather or for unemployment that occurred after claimants’ normal
winter working season had ended.

DUA Paid Prior to the Disaster

In our sample, 63 claimants were paid for weeks of unemployment that preceded any
freezing weather in their area. (See Exhibit A.) Since the Disaster Declaration “Incident
Period” was December 1, 2000 to January 25, 2001, FAWI paid DUA for unemployment in
December 2000 regardless of when freezing weather actually first occurred in the area where
claimants lived and worked.

Data compiled by the Florida Agricultural Statistics Service indicates there was no freeze
damage in those counties located below a line extending roughly from Spring Hill through
Orlando to Port St. John, Florida, until December 31, 2000. Yet, we found that 63 claimants
who lived and worked in areas not affected by freezing weather until January 2001, were
paid for up to 4 weeks of DUA, for December 2000.

FAWI indicated the disaster declaration did not provide specific dates that the disaster
impacted each county and there were no provisions to deny benefits to individuals who
worked in the disaster areas under these conditions.

We disagree. It is Florida’s responsibility to ensure the fundamental purpose of DUA is
preserved. That is, to assist individuals impacted by a disaster, not to supplement unrelated
unemployment.

DUA Payments Made Past the Normal Season

FAWI paid 103 claimants for weeks of unemployment that occurred past the end of their
normal working season. (See Exhibit A.)

ETA Handbook No. 356 (DUA), 2nd Edition, provides, in part:



U.S. Department of Labor – Office of Inspector General                                     10
Audit of Florida Disaster Unemployment Assistance Grant Number 1359-DR




        Because of the seasonal aspect of their employment, seasonal workers may be
        paid DUA only for those weeks that they would have been employed except
        for the fact that a major disaster intervened.

Our review of sampled claimants revealed that 103 seasonal agricultural workers received
DUA beyond the end of the seasons they normally would have worked, had a disaster not
been declared. FAWI did not establish DUA termination dates that were based on each
claimant’s seasonal work history, as was appropriate and reasonable. Instead, FAWI stated it
used a survey with agricultural and other industry representatives to define claimants’ normal
seasonal period of employment. FAWI added that automated flags were used to stop DUA
payments when a claimants’ normal season ended.

However, we found that once DUA payments began, a claimant received payments until the
earliest of the following dates: (1) the end of the disaster period; (2) the beginning of a new
benefit year, at which time the claimant became eligible for regular state unemployment
compensation; or (3) until the claimant began working again, typically, at the beginning of
the summer work season.

Employment histories included in claimants’ files indicated their winter seasonal work ended
much earlier in years prior to 2001, the year in which DUA benefits were available. To
illustrate, a sampled claimant’s ending work dates for the preceding four winter seasons
were:

    •   1999/2000 - June 1, 2000
    •   1998/1999 - May 20, 1999
    •   1997/1998 - May 11, 1998
    •   1996/1997 - June 13, 1997

As shown above, the latest date the claimant worked in any prior winter season was
June 13th. Therefore, all DUA payments made to the claimant after June 13, 2001, were not
justified. This claimant was paid $156 each week for 6 weeks beyond his normal work
season. Consequently, a total of $936 in improper DUA payments for weeks ending
June 23 through July 28, 2001, occurred.

FAWI stated that physical review of claims histories is not a reliable means for determining a
claimant’s normal seasonal work period. FAWI also indicated it used a survey with
agricultural and other representatives to define the normal seasonal period. We believe
claims histories are first hand information provided by claimants on their claims applications.
This information is more appropriate than generalizations for an industry as a whole by
industry representatives who are not familiar with individuals’ customary employment




U.S. Department of Labor – Office of Inspector General                                    11
Audit of Florida Disaster Unemployment Assistance Grant Number 1359-DR



cycles. Also, data from the Florida Agricultural Statistics Service indicates the growing
season was not shortened, as we previously discussed.

The remaining 34 non-disaster related claims that we identified were improperly paid for
various reasons, such as; voluntary terminations, or terminations that occurred at the end of a
normal season, rather than as a result of the disaster. (See Exhibit A.)


                                                    In addition to the previous issues discussed, we
  Claims Paid Without Sufficient                    identified 153 of the 420 claimants sampled
  Documentation or Because                          (36 percent) who were paid without adequate
  of Other Administrative Errors                    documentation of claimants’ eligibility to
                                                    receive weekly DUA payments or because of
                                                    other administrative errors.
20 CFR 625.4 provides in part:

        An individual shall be eligible to receive . . . DUA . . . if . . . [c] The
        individual is an unemployed worker or an unemployed self-employed
        individual . . . (e) The individual has filed a timely initial application for DUA
        and . . . a timely application for a payment of DUA with respect to that week
         . . . (f) That week is a week of unemployment for the individual.

The above criteria for DUA eligibility must not only be met, it must be documented.

ETA Handbook No. 356, 2nd Edition, Chapter I, section 12.a. (1) requires that DUA records
include:

        . . . initial application and continued claims for DUA, . . . and other related
        documents, records and correspondence.

However, we found that 58 claimants’ files were missing proof of employment, and 55
claimant files were missing weekly certifications that the claimants were unemployed.

Another 40 claimants improperly received DUA payments as a result of administrative errors
that included payments to individuals: (1) who were reemployed during weeks they received
DUA; (2) whose applications were either missing or unsigned; or (3) who were eligible for
regular state unemployment compensation instead of DUA.


                              The purpose of DUA is to provide unemployment benefits to
  Conclusion                  individuals who become unemployed as a result of a major
                              disaster and are not eligible for benefits under the state’s regular



U.S. Department of Labor – Office of Inspector General                                        12
Audit of Florida Disaster Unemployment Assistance Grant Number 1359-DR



unemployment program. It is not intended to supplement seasonal workers’ incomes and
preferential treatment should not be given to specific groups, as FAWI has done.

There is currently no mechanism, short of terminating the DUA agreement between DOL and
the state pursuant to 20 CFR 625.1(d)(3), for sanctioning Florida for policies and decisions
that resulted in improper DUA payments. Specifically, neither the statute establishing the
DUA program nor the implementing regulations contain a provision providing for the
Federal Government to demand that the State make repayment of improperly disbursed
benefits, absent collection by the State from the individual recipient. As it was FAWI’s
policies and stewardship, not the intentional or unintentional fault of claimants, that resulted
in improper charges to the grant, we are not questioning costs for recovery from the
claimants. However, we are recommending that the Assistant Secretary for Employment and
Training ensure that Florida establishes administrative policies and procedures that comply
with Federal filing and eligibility guidelines.


                                     We recommend that the Assistant Secretary for Employment
  Recommendations                    and Training ensure that Florida:

    •   Allows late filing of DUA claims only when justified by the circumstances supporting
        individual claims, not on a group basis;

    •   Pays DUA only for weeks of unemployment that are a direct result of a disaster and
        take place after the disaster occurred in their area;

    •   Establishes procedures to determine DUA termination dates based on prior
        employment seasons at the time payments are initially authorized for each claimant;
        and

    •   Emphasizes to claims staff that proper and complete documentation of eligibility
        must be obtained before payment of DUA is authorized.

                                                   In response to the draft report, the FAWI
  FAWI Response to the Draft                       disagreed with the report findings on claims
                                                   filed late without good cause and claims not
  Audit Report and Auditors’                       disaster related. During audit fieldwork, we
  Conclusion                                       considered the reasoning FAWI provided for
its interpretations of Federal filing and eligibility guidelines. Its response to the draft report
did not provide new arguments in support of its position. However, with regard to the
finding that claimants were paid for weeks before the freeze occurred, FAWI’s response did
present a different source, the National Oceanic and Atmospheric Administration (NOAA),




U.S. Department of Labor – Office of Inspector General                                       13
Audit of Florida Disaster Unemployment Assistance Grant Number 1359-DR



for freeze data relevant to our finding. To determine when a county experienced a damaging
freeze, we used data from the Florida Agricultural Statistics Service.

According to the NOAA data they provided, some counties the Florida Agricultural Statistics
Service reported as not having encountered a freeze in December 2000 did have freezing
temperatures during the month of December. Subsequent to receiving FAWI’s response, we
reexamined the relevant sample case files using the NOAA data and found 53 of the 63
claimants would still be shown as claimants paid for weeks before freezing occurred.
Therefore, using either criterion, claims were inappropriately paid to claimants whose
unemployment was not due to freeze damage.

Despite disagreement with two of the three report findings, FAWI agreed to take action to
address recommendations related to these findings. In summary, FAWI’s response did not
change our conclusions or recommendations. A copy of FAWI’s complete response to the
draft report is included in this report as Exhibit C.




U.S. Department of Labor – Office of Inspector General                               14
DRAFT                                                                                    EXHIBIT A
                       DUA IMPROPERLY PAID FOR SAMPLED PARTICIPANTS
                           Not Timely Filed       Not Disaster Related Administrative Errors
      Unvrs Improper       Fish    Short    Other Before Season Other Missing Missing Misc
      No. Payments         Related Season         Freeze Over          Support Certs    Reasons

  1      2        $1,311                                           X      X
  2      7         1,100                            X
  3     10           456             X                      X
  4     18           308                                                          X
  5     62         1,080                            X                     X
  6     64         1,638             X                      X                     X
  7     69           559                            X                     X
  8     70           972                                                          X       X
  9     72         1,730                     X              X                     X
 10     75         1,743                                    X                             X
 11     81         1,430                                                                  X
 12     87           156                            X
 13     89           411                                                          X
 14    100         2,769             X                      X
 15    111         1,100                                    X             X
 16    115           657             X                                            X
 17    116         1,154             X                                    X       X
 18    126         3,575             X                      X
 19    129         1,012                                           X
 20    139         1,925             X                      X                     X
 21    143           770                                                  X       X
 22    155         1,053                            X                     X       X
 23    159         1,740             X                             X
 24    160           798                                    X
 25    164           660                                           X                      X
 26    169         1,392             X                      X
 27    170         1,041                                           X
 28    178           652             X                                            X
 29    186         3,888      X                     X
 30    187           805                                           X      X
 31    202         2,171                                                                  X
 32    209         2,190             X                                            X
 33    211           518             X                      X
 34    214         5,849      X                                           X
 35    221         2,700                            X       X                             X
 36    226           330             X
 37    231         1,375                                           X              X
 38    237         3,570                                                                  X
 39    242         2,750             X                      X                     X
 40    244         4,400             X       X
 41    249         1,242             X                      X
 42    259           440                     X              X
 43    263         1,375             X                      X
 44    285         2,140                            X                                     X
 45    288         1,824                                    X             X
 46    291           373      X                                    X
 47    296           440                                                          X
 48    317         1,200                                    X                     X
 49    318         2,964                            X       X
 50    321         2,322             X                             X
DRAFT                                                                                   EXHIBIT A
                    DUA IMPROPERLY PAID FOR SAMPLED PARTICIPANTS
                          Not Timely Filed       Not Disaster Related Administrative Errors
      Unvrs Improper      Fish    Short    Other Before Season Other Missing Missing Misc
      No. Payments        Related Season         Freeze Over          Support Certs    Reasons
 51    332            660            X                      X            X
 52    334            540                                                         X
 53    346          1,944                                                X
 54    350            765            X
 55    351          1,351                                                X                 X
 56    357          3,888            X
 57    359            622                                                                  X
 58    361            770            X                                            X
 59    365            990            X                      X
 60    369          5,084    X                                      X             X
 61    371          1,800                                                                  X
 62    374          1,650                                           X
 63    397            222            X
 64    399          1,350                                                X
 65    407            275                                   X
 66    408          3,488    X                                           X
 67    411          2,916    X                      X
 68    420            576                           X
 69    422            817                    X
 70    424            750            X                      X
 71    429          1,080                           X                    X
 72    441          3,888                                                X                 X
 73    450          1,760    X                                           X
 74    465          1,983            X                              X
 75    474          1,620    X                                      X    X
 76    490            616            X
 77    494          1,155            X                                            X
 78    508            148            X
 79    510            550            X
 80    512            440                                   X
 81    520            609            X
 82    531            216                                   X
 83    536            840                                   X
 84    538            510            X                      X                              X
 85    547            300                                                                  X
 86    549          1,836                                           X    X
 87    554          1,100            X                      X                              X
 88    556            609                                                         X
 89    557            788                                   X
 90    559          2,275                                           X
 91    564            872            X
 92    565            110                                   X                              X
 93    572          1,100                                   X
 94    576          2,888                           X                    X
 95    579          1,980                                                X
 96    595            186                                                         X
 97    599          1,469                                                                  X
 98    610          1,488            X
 99    613          3,190                    X                      X
100    617          1,666    X
DRAFT                                                                                     EXHIBIT A
                     DUA IMPROPERLY PAID FOR SAMPLED PARTICIPANTS

                            Not Timely Filed       Not Disaster Related Administrative Errors
      Unvrs Improper        Fish    Short    Other Before Season Other Missing Missing Misc
      No. Payments          Related Season         Freeze Over          Support Certs    Reasons
101    620          1,320                                                                    X
102    625          1,449                             X                    X                 X
103    633            368                             X
104    639          1,650              X                      X
105    641          1,560                                     X                     X
106    644          1,533              X                      X
107    650          3,250                                     X
108    651            440              X                                            X
109    654            432                             X
110    666            162              X
111    668          3,480      X                      X                    X
112    669            972                                                  X
113    672            476              X
114    677          1,640                                     X                     X
115    679          2,352              X                      X
116    681            324                                     X
117    682            990                                             X
118    685            452                                     X
119    704            770                                     X
120    712            990                                             X                      X
121    719          1,404      X                                           X
122    753            820              X                                            X
123    754          2,464                             X       X
124    765            531              X                      X
125    767          1,080                                                  X
126    773            889                                             X             X
127    777          1,085                                                           X
128    780          2,310                                     X            X
129    784          1,116                                                                    X
130    790          3,456                                                  X
131    801          1,210              X                                   X
132    806          3,488      X                                      X
133    808          1,197                      X                                    X
134    819            432                             X
135    821            972                             X
136    826            648                                                  X
137    833          3,211      X
138    837          1,993                                     X
139    855          1,008                                     X
140    861            110                                                  X                 X
141    869          1,645              X                      X
142    870            498                                                           X
143    873            185                             X
144    874          3,105      X
145    880          1,404      X                      X                    X
146    888          1,836                             X                    X
147    897          3,405                      X      X       X
148    900          3,024      X
149    903            157                             X
150    913            369              X                      X
DRAFT                                                                                   EXHIBIT A
                   DUA IMPROPERLY PAID FOR SAMPLED PARTICIPANTS

                              Not Timely Filed       Not Disaster Related Administrative Errors
        Unvrs Improper        Fish    Short    Other Before Season Other Missing Missing Misc
        Nbr Payments          Related Season         Freeze Over          Support Certs    Reasons
  151     921         2,831                                     X
  152     934            92                             X
  153     935         2,640                      X
  154     939         2,584                                             X
  155     948           206                                                                    X
  156     951           372              X                      X
  157     952         1,650              X                      X
  158     954           766                                     X
  159     958         1,356              X                                            X
  160     959           550              X                      X
  161     961         2,272                             X       X                              X
  162     969           972                             X                                      X
  163     991           540                                     X                     X
  164     992         3,132      X                      X                    X
  165     995         2,010      X
  166    1000           216                             X
  167    1006         3,888      X                      X                    X
  168    1008           750                                             X
  169    1011         1,080                                     X                     X
  170    1012           976                                     X                     X
  171    1017           398                                                           X
  172    1020           990              X
  173    1021           650                             X                                      X
  174    1023           426                             X
  175    1026         1,210              X                              X
  176    1039           702              X                                            X        X
  177    1045         1,890                      X              X
  178    1046         2,320      X
  179    1048         1,441                                     X                     X
  180    1056           826              X                      X                     X
  181    1057           880                                                           X
  182    1063         3,888      X                      X                    X
  183    1064           648              X
  184    1066         1,989              X                      X                     X
  185    1069         4,519      X                                           X
  186    1072         1,925                                                  X
  187    1076           880              X                      X                              X
  188    1084         3,160                             X                    X
  189    1085           540                                     X
  190    1086         2,376      X
  191    1087           500              X
  192    1088           488              X
  193    1089         1,610      X                                      X    X
  194    1091         1,336                             X                    X
  195    1092         5,820              X                      X
  196    1105         3,575                                             X             X
  197    1109           990              X                      X
  198    1114         1,080                             X                    X
  199    1117           725              X
  200    1119         1,326              X                      X            X                 X
DRAFT                                                                                 EXHIBIT A
                   DUA IMPROPERLY PAID FOR SAMPLED PARTICIPANTS
                            Not Timely Filed       Not Disaster Related Administrative Errors
        Unvrs Improper      Fish    Short    Other Before Season Other Missing Missing Misc
        Nbr Paymens         Related Season         Freeze Over          Support Certs    Reasons
  201    1136           610                                   X
  202    1148           237            X                      X
  203    1158           550            X                                            X
  204    1160         1,296            X                      X
  205    1161         3,300                                           X
  206    1176           216                           X
  207    1186           220            X                      X
  208    1190         2,115            X                      X
  209    1196         1,376            X
  210    1218         1,161                                           X
  211    1222         1,728                           X                                      X
  212    1229         1,179                           X                             X
  213    1237           762            X                      X
  214    1251           994                                                                  X
  215    1255           570            X
  216    1262         1,146            X                      X
  217    1263           496            X                                   X
  218    1269         1,442            X                      X
  219    1271         3,297                           X                    X
  220    1272         1,611                                   X
  221    1283         1,210    X                              X            X
  222    1296           550            X                      X
  223    1298           432                           X
  224    1324         1,928                           X                    X
  225    1326           550            X                      X
  226    1335         1,210            X                              X    X
  227    1338           220                                                X
  228    1346         2,475            X                                            X
  229    1347         1,296    X                                           X
  230    1350         3,300                                           X
  231    1352           484                           X
  232    1370         2,070            X
  233    1373           320            X
  234    1374         2,270            X                                            X
  235    1383           909                    X                      X
  236    1384         1,925            X                      X
  237    1388         1,413                           X
  238    1401           783            X                      X
  239    1422           822            X                      X
  240    1442           980            X                      X
  241    1471         1,170            X                      X                     X
  242    1479           312                           X
  243    1482         1,500            X                      X                     X
  244    1484         1,100            X                      X                     X
  245    1486           880            X                      X
  246    1492         1,932                           X       X
  247    1495           216                           X
  248    1496         1,796                                                                  X
  249    1504           966            X                                            X
  250    1507           549            X                      X
DRAFT                                                                                 EXHIBIT A
                DUA IMPROPERLY PAID FOR SAMPLED PARTICIPANTS
                          Not Timely Filed       Not Disaster Related    Administrative Errors
      Unvrs Improper      Fish     Short   Other Before Season Other Missing Missing Misc
       No. Payments       Related Season         Freeze Over             Support Certs    Reasons
   251 1509           715             X                     X
   252 1519           986             X                     X
   253 1528           790             X                     X
   254 1530           940                           X                                         X
   255 1531         1,358             X                     X
   256 1542         1,320    X
   257 1545         1,375                                                   X        X        X
   258 1548           716                           X
   259 1550           471                           X
   260 1553            99             X                                                       X
   261 1558         1,616                                   X
   262 1562           864                           X
   263 1566           990             X
   264 1581           152                                   X
   265 1584         1,816             X                     X
   266 1593           864                                                   X
   267 1597         1,782             X                     X
   268 1598           220             X                                     X                 X
   269 1609           496             X                             X                X
   270 1616         3,990                           X
   271 1628         1,296             X                     X
   272 1633         2,133             X                     X                        X
   273 1634           876                                                   X
   274 1637           592                                           X       X                 X
   275 1645           550                           X
   276 1659         2,750                                                   X
   277 1663           113                           X
   278 1676           852             X
   279 1677         1,760             X                             X
   280 1699           864                           X
   281 1711         2,360                                   X
   282 1727           557                           X
   283 1745           990             X                                                       X
   284 1750           990             X                                     X
   285 1757           668             X                                              X
   286 1765         3,712                           X
   287 1768           429                           X
   288 1774         1,890                           X
   289 1780         1,908             X                     X
   290 1788           396                           X                                X
   291 1794         3,704                           X                                         X
   292 1795         1,491                           X
   293 1797           732             X
   294 1801         1,099                                   X
   295 1803           110                                           X
   296 1814           984             X
   297 1818         1,296             X                     X
   298 1832         1,080                                                                     X
   299 1837         1,800             X                                              X
   300 1841           468             X                     X
   TOTALS       $413,325        27     114    10      63      103     34      58       55       40
                                                                    EXHIBIT B


           SAMPLING METHODOLOGY AND PROJECTIONS
               FLORIDA DUA GRANT NO. 1359-DR


Pertinent sampling information is as follows:


SAMPLING DATA

Universe Size               1,842
Sample Size                   420
Improperly Paid               300
Universe Value         $3,039,611
Sample Value            $667,619
Improperly Paid         $413,325

PROJECTIONS

90 Percent Confidence Limit

Lower Limit            $1,674,037
Point Estimate         $1,812,725
Upper Limit            $1,951,413
Sampling Error            $84,053


ESTIMATION METHODOLOGY: The mathematical formulas for simple random
sampling have been used to determine the point estimate and its standard errors.

REFERENCE: Richard L. Scheaffer, William Mendenhall III, and R. Lyman Ott,
Elementary Survey Sampling, Belmont, CA: 1996: Duxbury Press.
EXHIBIT C
EXHIBIT C
EXHIBIT C
EXHIBIT C
EXHIBIT C
EXHIBIT C
EXHIBIT C
